Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 CLIENT COOPERATION WITH
CHILD SUPPORT ENFORCEMENT
           Policies and Practices




                      JUNE GIBBS BROWN
                       Inspector General

                          MARCH 2000
                         OEI-06-98-00040
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins
                                 Alan Levine, Program Specialist
Ruth Ann Dorrill
                               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To describe State policies and practices for gaining cooperation with child support enforcement
from Temporary Assistance for Needy Families (TANF) clients.

BACKGROUND

Federal law requires TANF clients to cooperate with State child support enforcement by
providing information about noncustodial parents and appearing for appointments as needed.
State child support agencies are required to determine if clients are cooperating in “good faith”
and notify the public assistance agency of each client’s cooperation status. If the child support
agency determines a client has not cooperated, the public assistance agency must reduce the
family’s cash assistance by at least 25 percent and, at State discretion, may deny the family all
cash assistance. This report describes the client cooperation policies of six focus States which we
chose in order to examine a variety of implementation strategies and experiences regarding TANF
client cooperation. We gathered survey information and reviewed documents from 99 local child
support and 103 local public assistance offices, and interviewed approximately 180 managers and
caseworkers.

FINDINGS

TANF Clients Appear to Have a Basic Understanding of Cooperation
Requirements, But May Not Fully Understand All That is Expected of Them

All six States in our study require clients to provide information about noncustodial parents and to
keep appointments, such as for genetic testing or court hearings. While 95 percent of local public
assistance respondents believe that most or all TANF clients understand their State’s cooperation
requirements, only 60 percent of child support respondents agree with this assessment. The
remaining 40 percent believe that half or fewer clients understand cooperation requirements.
While public assistance workers mainly focus on clients providing initial information about
noncustodial parents, child support staff are more aware that clients may also be expected to
appear in court, submit to genetic testing, and attend additional meetings with agency staff.




                                                 i
Two of Our Study’s Focus States Require Applicants to Interview With Child
Support Staff Prior to Approval for Benefits, While the Remaining Four Refer
Cases Only After a New Client Has Been Approved for TANF Benefits

Our focus States have two distinct practices regarding the earliest time at which a TANF
applicant might interview with child support staff, either prior to or following approval of
benefits. Staff report that pre-approval interviews allow child support workers to begin working
cases sooner, and that clients may be more willing to provide information because they are still
seeking approval of their application.

After Typically Providing Many Opportunities to Cooperate, Front Line Child
Support Staff Determine Each Client’s Cooperation Status

Some clients fail to cooperate because they provide inadequate or false information, or fail to
appear for appointments. Front line child support staff are typically responsible for determining
the cooperation status of their clients and feel comfortable with the task because most cases are
fairly obvious. Clients are typically notified in advance and given multiple opportunities to avoid
being designated as noncompliant by providing additional information, attending re-scheduled
appointments, or completing requested documents.

States Impose Standardized Penalties on TANF Clients Who Do Not Cooperate in
Meeting Child Support Requirements, Ranging From Reductions in Cash
Assistance to Case Closure

States report that TANF clients who do not cooperate face standardized penalties that reduce or
eliminate their cash assistance. Penalties for noncooperation with child support enforcement in
the six focus States range from the Federally mandated 25 percent cash assistance reduction to
full case closure. We found that within each focus State, public assistance agencies appear to
impose penalties uniformly.

CONCLUSION

Gaining cooperation from TANF clients is important to facilitating child support enforcement.
Congress has long maintained that recipients of public benefits are obligated to assist States in
pursuing support for their children. Client responsiveness can ease and speed the support
enforcement process, particularly when paternity has not yet been established.

All focus States have implemented client cooperation policies in keeping with the Federal
mandates, including establishing guidelines for staff, allowing for use of exceptions, and imposing
uniform penalties. Staff in both the public assistance and child support agencies appear to value
client cooperation, and attempt to implement State policy in a way that is largely flexible and
client-focused. This includes relying primarily on front line staff closest to the individual cases to
determine whether clients have adequately cooperated.

                                                  ii
Although most TANF clients cooperate readily, gaining cooperation from some clients can prove
difficult. In response, staff typically provide multiple opportunities for clients to give information
and to make appointment deadlines, and appear concerned about legitimate barriers to
cooperation. Nevertheless, shortfalls and difficulties in current practice remain. However, based
on our review, there are good opportunities to address them in a practical way.

COMPANION REPORTS

        This is one of four OIG reports on how States gain TANF client cooperation with child
        support enforcement. One companion report, Client Cooperation with Child Support
        Enforcement: Challenges and Strategies to Improvement (OEI-06-98-00041), examines
        why some clients do not cooperate and how States attempt to gain their cooperation.
        Another report, Client Cooperation with Child Support Enforcement: The Role of Public
        Assistance Agencies (OEI-06-98-00042), discusses responsibilities of public assistance
        agencies and collaboration between agencies. The remaining report, Client Cooperation
        with Child Support Enforcement: Use of Good Cause Exceptions (OEI-06-98-00043),
        describes how clients may be exempted from cooperation requirements under certain
        circumstances, especially when enforcement may put the child at risk of violence.




                                                  iii
             TABLE            OF       CONTENTS


                                                  PAGE


EXECUTIVE SUMMARY                                     i


INTRODUCTION                                         1


FINDINGS


     Cooperation Requirements                        4


     Information Collection                          6


     Determination of Noncooperation                 7


     Penalties for Noncooperation                   10


CONCLUSION                                          11


ENDNOTES                                            13

                       INTRODUCTION

PURPOSE

   To describe State policies and practices for gaining cooperation with child support
   enforcement from Temporary Assistance for Needy Families (TANF) clients.

BACKGROUND

   Federal law has long required public assistance clients to cooperate with State child
   support enforcement authorities in establishing paternity and creating and enforcing child
   support and medical support orders. As part of a broad effort to reform the nation’s
   welfare system, Congress made significant changes to Federal policy regarding client child
   support cooperation requirements in the Personal Responsibility and Work Opportunity
   Act of 1996. Currently, unless exempted from cooperation requirements through a good
   cause or other exception,1 TANF clients must name and provide information about the
   absent parent of their children, and otherwise cooperate as determined by the State.2
   Formerly, State public assistance agencies determined whether clients were cooperating
   with their State’s child support agency; however, welfare reform made State child support
   agencies responsible for determining if TANF clients are cooperating in “good faith” and
   notifying the public assistance agency of each client’s cooperation status. Before welfare
   reform, State public assistance agencies solely determined how to deal with clients who
   failed to cooperate. Now, if the child support agency determines a client has not
   cooperated, the TANF agency is required to reduce the family’s cash assistance by at least
   25 percent and, at State discretion, may deny the family all cash assistance. If a State
   public assistance agency does not enforce the penalties requested by the child support
   agency, Federal law allows for the State to be penalized up to 5 percent of their TANF
   funds.3 All these changes were made in an attempt to improve client cooperation with
   child support enforcement. While families who receive Medicaid coverage, food stamps,
   or foster care services are also required to cooperate with child support enforcement
   efforts, this report focuses on cooperation issues involving clients of the TANF program.4

   This report describes the policies of six States regarding TANF client cooperation with
   child support enforcement and how these policies are implemented. State child support
   agencies determine policies regarding what information and actions to require of clients,
   how to inform clients about cooperation requirements, which staff are authorized to
   determine whether clients are cooperating, what additional opportunities clients may
   receive to cooperate, and staff procedures for communication with public assistance
   agency workers and clients. State public assistance agencies also determine policies
   regarding how clients are informed about cooperation requirements, as well as what
   penalties may be imposed for noncooperation, whether clients receive additional
   opportunities to cooperate before being penalized, how benefits may be reinstated once a



                                            1

   client complies, and staff procedures for communication with child support workers and
   clients.

SCOPE AND METHODOLOGY

   We used several sources of information to examine TANF client cooperation with child
   support enforcement. The primary source of information comes from self-administered
   written surveys which we mailed to local child support and public assistance offices.
   Managers and administrators from 99 local child support offices and 103 public assistance
   offices in six focus States - California, Georgia, Illinois, New Jersey, Texas and Virginia -
   returned these mail surveys regarding cooperation policies, practices, and improvement
   strategies. The quantitative data (percentage of responses) presented in this report come
   from responses to the questions in these surveys. We also gathered and reviewed agency
   documents from these same local offices, including client cooperation policy statements,
   standardized forms, examples of correspondence with clients and other agencies, outreach
   materials, and other related documents.

   We also made site visits to a subset of local offices, visiting offices in one or two cities and
   their surrounding areas in each of the six focus States. During these visits, we conducted
   interviews with approximately 180 local public assistance and child support managers and
   caseworkers. At almost all offices, we interviewed one or more managers, then separately
   interviewed two or more caseworkers. Resource constraints prevented us from directly
   interviewing clients. Finally, we conducted telephone interviews of administrators from
   each State’s child support enforcement and public assistance agency to confirm
   information regarding State policies.

   We purposively selected the six focus States to include a variety of implementation
   strategies and experiences regarding client cooperation. To achieve this variety, we
   considered many criteria including type of penalties for noncooperation, number of good
   cause claims, number of good cause exceptions granted, outstanding program
   characteristics (innovations, privatization, etc.), status as State-administered or county-
   administered, and geographic region. We also purposively selected local child support and
   public assistance offices within these States to provide a mix of urban, suburban, mid-size,
   and rural locations. The selection of focus States does not purport to be representative of
   the nation, nor do local offices represent all offices within individual focus States. The
   selections do, however, allow for examination of client cooperation processes under
   conditions found throughout the country.

   This report relies on the perceptions of local office survey respondents and interviewees.
   These respondents provided detailed information about how cooperation policies are
   implemented, as well as the effect of cooperation requirements on office operations, staff,
   and clients. We did not attempt to independently verify the information provided by staff.
   However, the information included in the report does relate the experiences of front line
   staff who deliver services to clients on a daily basis, and who demonstrate considerable
   concern for the effectiveness of their programs.


                                              2

   This study was conducted in accordance with the Quality Standards for Inspections issued
   by the President’s Council on Integrity and Efficiency.

COMPANION REPORTS

      This is one of four OIG reports on how States gain TANF client cooperation with child
      support enforcement. One companion report, Client Cooperation with Child Support
      Enforcement: Challenges and Strategies to Improvement (OEI-06-98-00041), examines
      why some clients do not cooperate and how States attempt to gain their cooperation.
      Another report, Client Cooperation with Child Support Enforcement: The Role of Public
      Assistance Agencies (OEI-06-98-00042), discusses responsibilities of public assistance
      agencies and collaboration between agencies. The remaining report, Client Cooperation
      with Child Support Enforcement: Use of Good Cause Exceptions (OEI-06-98-00043),
      describes how clients may be exempted from cooperation requirements under certain
      circumstances, especially when enforcement may put the child at risk of violence.




                                              3

                                    FINDINGS

COOPERATION REQUIREMENTS

      While Federal law requires TANF recipients to cooperate with child support enforcement
      in a general sense, States have discretion to determine what specific actions constitute
      cooperation. Generally, in each of our six focus States, clients must cooperate by:
      naming and providing information about noncustodial parents, or putative fathers in cases
      that require paternity establishment; appearing for appointments at agency offices;
      appearing in court; and submitting to genetic testing.

While Nearly All Public Assistance Staff We Surveyed Believe That Their Clients
Understand Cooperation Requirements, Many Child Support Staff Report Clients
May Not Fully Understand All That Is Expected of Them

      TANF clients typically learn of the requirements to cooperate with child support
      enforcement during an application or re-determination interview at the public assistance
      office. Public assistance workers usually conduct this interview, although some offices use
      child support staff co-located or out-stationed in the public assistance office.5 Most public
      assistance respondents (94 percent) report they provide clients with a verbal explanation
      of cooperation requirements, as well as written materials (91 percent). A few offices also
      post this information on bulletin boards in their waiting areas. Public assistance agencies
      in two focus States have developed videos which explain cooperation requirements, but
      only about half of local public assistance respondents we surveyed in those States report
      using these videos.6 In addition to explanations of cooperation requirements at public
      assistance offices, local child support respondents in all six States report they reiterate the
      cooperation requirements during any client interviews they conduct, and through written
      materials provided to clients.

      Responding staff from the two agencies differ in their views of the effectiveness of their
      combined efforts to inform clients about cooperation requirements. While 95 percent of
      local public assistance respondents feel that most or all clients understand their State’s
      cooperation requirements, only 60 percent of child support respondents agree with this
      assessment. Forty percent of child support respondents believe that half or fewer TANF
      clients understand their State’s cooperation requirements.

      One reason child support workers may perceive that fewer clients fully understand
      cooperation requirements is that these workers appear to have a better understanding of
      exactly what cooperation entails. While public assistance workers mainly focus on clients
      providing initial information about noncustodial parents or putative fathers, we found that
      most child support workers are more aware that clients may also be expected to provide
      additional information, visit agency offices for additional interviews, appear and testify in
      court, and submit to genetic testing.


                                                4

Some States Require TANF Clients to Provide All Available Information About
Noncustodial Parents, While Others Require Clients to Provide Only Minimal
Information

      Typically, the first opportunity clients have to cooperate with child support enforcement
      involves providing information about noncustodial parents or putative fathers. Child
      support agencies seek this information from clients in order to allow staff to locate the
      noncustodial parent, establish paternity, create a child support order, and/or enforce a
      prior obligation. Staff indicate that the most useful information is a full name, Social
      Security number, driver’s license number, date of birth, and current employment data.
      Other helpful information includes last-known address, make and model of automobiles
      owned, relatives’ addresses, schools attended, and previous employers.

      Among focus States, policy regarding the provision of this information falls into two
      categories. Three focus States require clients to provide all the pertinent information they
      have about noncustodial parents. Two of these States go further to require clients to
      make efforts to gain more information than may be readily available upon first request.
      Under this ‘all information’ approach, it is necessary for child support workers to
      determine whether clients are in fact providing all the information they have or are making
      efforts to obtain additional information. Three States use a second approach involving
      minimum standards for providing information. One of these States requires that clients
      name the noncustodial parent or putative father and provide two additional pieces of
      information, while the other two States require the name plus three pieces of additional
      information.

      Staff report that while collecting minimal information may sometimes not generate enough
      leads to allow the child support agency to pursue support, it does standardize expectations
      for clients and gives initial interviewers clear guidelines as they attempt to elicit
      information. Many public assistance caseworkers like the policy of gathering minimal
      information because they believe their role in discussing noncustodial parents should be
      limited. These workers explain they are often uncomfortable talking about their clients’
      relationship with the noncustodial parent, or attempting to uncover the identity of the
      father when paternity has not been established. They note that, unless handled carefully, a
      contentious child support portion of the interview may hinder their efforts to develop the
      close relationship needed in the future to help the client move toward self-sufficiency.
      Therefore, workers suggest that, in some cases, it may be better for public assistance staff
      to accept minimal information, then let child support staff re-interview clients if additional
      information is needed in the future.

TANF Clients May Be Exempted from State Cooperation Requirements By
Qualifying for a “Good Cause” Exception and Other Exceptions

      Federal law allows States to exempt clients from cooperating when child support
      enforcement is not in the best interest of the child. This normally involves situations in
      which it is feared that a noncustodial parent might retaliate against a child or client


                                                5

      because the client cooperates with authorities. All six focus States have adopted
      definitions of a “good cause” exception which includes cases of domestic violence, when
      conception was the result of forcible rape or incest, when adoption is pending, or when the
      client is consulting with a social service agency regarding the possibility of adoption.
      Some focus States have added other exceptions, including circumstances of mental
      incapacity of the client, cases with non-parent caretakers, cases in which conception
      occurred from artificial insemination, cases in which clients lack knowledge about
      noncustodial parents, and cases in which domestic violence is anticipated. Front line
      public assistance caseworkers are normally responsible for informing clients about good
      cause exceptions and for evaluating requests for exceptions. Respondents report few
      requests for good cause exceptions and virtually no fraudulent claims. In a companion
      report, we discuss the process for requesting good cause exceptions, the reasons and
      disincentives that help explain the low number of requests, and local office efforts to
      preserve client safety.7

INFORMATION COLLECTION

Initial Information About Noncustodial Parents is Usually Collected By Public
Assistance Staff, But Child Support Workers Can Often Obtain More Useful
Information

      Public assistance staff ask clients questions about noncustodial parents during new
      application and re-determination interviews, but the information received is often
      minimal.8 If the information collected is considered insufficient for establishing paternity
      and pursuing support, child support staff may conduct follow-up interviews. Interviews
      conducted by child support workers are likely to differ from those conducted by public
      assistance staff in two significant ways. First, because child support workers have been
      specifically trained to gather information that will lead to location of the noncustodial
      parent, they are better equipped to ask important follow-up questions and gain potentially
      vital information. One worker explains the differences, “It is incumbent on the client to
      give us as much information as she has, and we emphasize this. Our interviewing
      techniques are much different from a TANF worker - we are trained to probe deeper and
      observe body language ... observe who comes with them to the appointment.”

      Second, child support interviewers tend to have the electronic means to immediately verify
      information given them by clients. If a client provides a Social Security number, for
      instance, workers can immediately determine if that number exists, who has been assigned
      that number, and whether that person has had earnings in a location that would validate
      the client’s information. Similarly, child support interviewers often verify information
      through motor vehicle records, State employment databases, and other systems. Workers
      report that access to these resources substantially improves the information child support
      staff gather relative to public assistance interviewers.




                                                6

Two of Our Study’s Focus States Require Applicants to Interview With Child
Support Staff Prior to Approval for Benefits, While the Remaining Four Refer
Cases Only After a New Client Has Been Approved

      Our focus States have two distinct practices regarding the earliest time at which an
      applicant for public assistance might interview with child support staff. As a matter of
      State policy, clients in one focus State are required to personally interview with child
      support staff, who are co-located in each county’s public assistance office, before
      continuing with their application for benefits. In another focus State, child support staff
      must be available in person or by telephone for such a pre-approval interview. Staff
      identify two primary benefits of requiring pre-approval child support interviews. First,
      workers may gather and verify information sooner than if they had to wait until a client is
      approved, and can immediately begin working the case. Second, at the time of
      application, clients often have the best information they will ever have about noncustodial
      parents or putative fathers, and staff report clients are more willing to provide information
      because they are still seeking approval of their application.

      In the other four focus States, new cases are typically not referred to the child support
      enforcement agency until the clients are approved for benefits, which may take up to 45
      days. In three of these States, child support staff examine the information that clients
      provide at the public assistance office to determine whether a follow-up interview is
      needed. If the initial information is sufficient to work the case, they begin procedures to
      collect support. When more information is needed, workers may conduct telephone
      interviews, or mail clients questionnaires, rather than request a personal interview.
      Personal interviews are scheduled when necessary, but staff indicate they avoid requesting
      clients to come in to the child support office because this further delays enforcement, and
      because the appointment may have to be re-scheduled if the client faces barriers to
      attending. The child support agency in the remaining focus State routinely schedules all
      newly approved TANF clients for personal interviews with child support staff, regardless
      of what information has already been provided.

DETERMINATION OF NONCOOPERATION

TANF Clients May Fail to Cooperate by Providing Inadequate or False Information
and by Failing to Appear for Appointments

      Child support and public assistance agency staff report that most TANF clients cooperate
      by providing at least minimal information about noncustodial parents or putative fathers at
      initial interviews. However, workers describe several other possible client reactions to
      their requests for information during interviews. Some new applicants and clients seeking
      re-determination of eligibility for benefits simply refuse to provide information. As one
      worker describes, “Some choose to withdraw their application when they find out that
      they have to name the father. They don't want him involved at all.” In these cases, new
      application processes cease and existing clients face penalties for noncooperation.
      Workers also report receiving sketchy or even false information during interviews. For


                                                7

      example, a woman who wants to avoid paternity establishment may delay the process
      several months by intentionally naming the wrong man as putative father. By using this
      ploy, applicants may gain approval for benefits while avoiding real cooperation. Similarly,
      clients may provide false names, invalid Social Security numbers, non-existence addresses,
      and the like. Two workers explain this problem, “Some make up everything. Anything to
      get us off their back. When we prove it false, they make up more.” And, “It bothers you
      when they do that. It is hard to prove that they are lying. How can you prove it?”

      Clients who seem to initially provide accurate information about noncustodial parents may
      subsequently fail to cooperate. For instance, if the man named as putative father is
      excluded by genetic testing, the client is required to name another man. If the client
      refuses to name another man, she may be designated noncooperative. To discourage
      clients from intentionally naming wrong men as putative fathers, one focus State instituted
      a policy that the client would be designated noncooperative if the first two men named
      were excluded by genetic testing, even if the client names a third man as putative father.
      However, this policy was challenged in court and the offices we visited in that State
      indicated they were not currently enforcing the policy.9 Clients may also fail to cooperate
      by not completing and returning agency documents. In one State, for example, the child
      support enforcement agency typically mails new clients an extensive form which must be
      completed and returned within 15 days. Workers report that because the form is quite
      detailed and, when paternity is in question, requests intimate information about the client’s
      personal relations, many clients fail to return the form. Clients who need paternity
      established for a child may also be required to complete and sign a voluntary paternity
      acknowledgment form to be considered cooperative.10

      Finally, clients can fail to cooperate by not appearing for appointments. A child support
      caseworker describes, “At first interviews, we have problems getting clients to show up.
      No contact is the greatest problem. [An] appointment is set and they do not show up. We
      have about 60 percent no-shows. If we get to the stage of genetic testing or court order,
      we generally have cooperation.” Our companion report on State efforts to improve client
      cooperation explores the causes of noncooperation by examining barriers that prevent
      some clients from cooperating, program characteristics that discourage cooperation, and
      strategies States use to improve client cooperation.11

Front Line Child Support Staff Determine Each Client’s Cooperation Status, and
Are Largely Comfortable With This Task Because Most Cases Are Fairly Obvious

      Local caseworkers are largely responsible for determining whether TANF clients are
      cooperating. If a client refuses to provide information during initial interviews, the
      interviewer - either a child support or public assistance worker - designates the applicant
      or client as noncooperative. Otherwise, the child support worker assigned a case is
      usually individually responsible for making a determination of cooperation or
      noncooperation. Only 22 percent of child support respondents report that supervisors are




                                                8

      also routinely involved in cooperation determinations, although staff indicate that they
      often consult their supervisors when unique situations arise.

      Front line child support staff express comfort with their role as decision-maker, despite the
      great impact a noncooperation determination might have on a client. Workers explain that
      most cases of noncooperation are obvious because, by the time the case gets to them, the
      main reason for noncooperation is because of failure to appear for scheduled appointments
      or other events. Caseworkers point out that while it is often difficult to tell whether
      clients are completely and accurately providing all the information they have about
      noncustodial parents, they have no difficulty telling whether a client attends a scheduled
      appointment. Staff explain that when clients fail to appear for appointments, the main
      question is whether the client has a valid reason for not appearing.

TANF Clients Typically Have Multiple Opportunities to Avoid Being Designated as
Noncooperative by Making a Good Faith Effort to Cooperate

      To insure that clients are not unjustly penalized for noncooperation, both policy and
      practice in all six States give clients the benefit of the doubt regarding available
      information about noncustodial parents, permit rescheduling of missed appointments, and
      allow clients additional chances to complete required documents. Staff in 85 percent of
      local child support offices report that clients who make “good faith” efforts to provide
      information will not be penalized, even if they provide little information about
      noncustodial parents. One worker explains how staff generally view clients providing only
      sketchy information, “Usually good faith is determined by the client’s attitude. If the
      client gives consistent information, appears to be cooperative but lacks the knowledge, is
      unable to recall pertinent information despite careful prompting, we accept the client’s
      efforts.”

      Three States have specific forms which TANF clients may use to attest to a lack of
      additional knowledge. In two States, these forms also require clients to explain why they
      don’t know more about the noncustodial parent or putative father and what efforts they
      have made to gain additional information. Even after an attestation of lack of knowledge,
      child support staff in 85 percent of sample offices report they continue to contact clients to
      determine if more information has become available. Staff in two focus States report
      contacting clients in person, by telephone, or by mail at least annually to request any new
      information. One worker reports, “We still contact the client every three months to
      determine if she has new information.” Caseworkers also continue to pursue support by
      using the limited information they have to locate the noncustodial party. Staff report that
      automated systems regularly compare whatever information is available against relevant
      databases and alert caseworkers when data matches occur.

      Typically, if a client does not show up for an appointment, but calls to explain why they
      are not appearing, another appointment is arranged with no adverse consequences. One
      worker describes, “We always allow a second opportunity for the client to meet with us
      or contact us by phone.” If, however, clients do not make a phone call, or cannot


                                                9

      demonstrate a valid reason for missing an appointment, they are likely to be designated
      noncooperative and face penalties. Also, some States are more stringent about keeping
      certain appointments - namely, appearing in court or for genetic testing - because other
      parties are often involved. In these cases, “no-show” clients are more likely to be
      designated noncooperative and may have to make extra efforts to demonstrate their
      cooperation.

PENALTIES FOR NONCOOPERATION

Even After Being Notified of Their Noncooperation Status, TANF Clients May
Avoid Penalties or Have Benefits Reinstated by Cooperating, Yet Some Clients
Do Not Take Advantage of These Opportunities

      All local public assistance respondents report that clients are mailed at least one notice
      informing them that they may be penalized for noncooperation, and many clients are
      mailed notices by both agencies. Clients are mailed a written notification of
      noncooperation in 88 percent of public assistance and 65 percent of child support offices
      we surveyed. Clients may also be notified of noncooperation by telephone from staff of
      one or both agencies. Even after a client is designated noncooperative, 90 percent of local
      child support respondents report they will allow TANF clients to change their status by
      cooperating prior to imposition of penalties. If clients call or come in to child support
      offices, staff indicate they will attempt to gather needed information or re-schedule an
      appointment, and alert the public assistance office that the client might be cooperating.

      However, child support respondents report that, once notified they have been designated
      as noncooperative, clients only sometimes (45 percent of respondents), rarely (26
      percent), or never (5 percent) act to avoid penalties. Staff explain two reasons why more
      clients may not take advantage of opportunities to avoid penalties. First, many clients may
      simply not act quickly enough because once they are notified, their grant may be reduced
      in only a few days. Forty-eight percent of child support respondents report clients have 20
      days or less to comply to avoid penalties, and another 30 percent say clients have 30
      days.12 Another reason clients may fail to avoid penalties involves the effectiveness of the
      threat of penalties. Staff from both agencies explain that the actual imposition, not the
      threat, of penalties is often needed to catch the attention of some TANF clients.

After Clients Have Been Provided with Notice and Multiple Opportunities to
Cooperate, States Impose Standardized Penalties for Noncooperation

      TANF clients who still fail to cooperate with child support enforcement after receiving
      multiple opportunities and sufficient notice face a variety of penalties in our six focus
      States. One State reduces the family’s cash assistance by 25 percent until the client
      cooperates. One State reduces the family’s cash assistance by a specific dollar amount
      ($78), regardless of the total grant the family receives.13 One State has three tiers of
      penalties, effectively reducing the cash grant by 50 percent for a period of three months,



                                               10

   followed by elimination of all cash assistance. One State removes the needs of the client
   when calculating the families cash grant for a period of six months, followed by
   elimination of all cash assistance. The remaining two focus States immediately eliminate
   all cash assistance. (Among the States, elimination of all cash assistance is often referred
   to as ‘full family sanction’ because children, as well as adult clients, are deemed ineligible
   for cash assistance, or ‘case closure’ because the families cease to be clients of the TANF
   program.)

   Each State’s penalties are standardized and appear to allow no variation among clients.
   That is, while local staff have great flexibility to work with individual clients to avoid
   penalties, staff do not have discretion to impose different penalties on different clients.
   Additionally, once penalties are imposed, workers indicate they cannot be removed until
   the noncooperation designation is lifted. All but two local public assistance respondents
   report they remove penalties, or reinstate benefits, only when the child support agency
   determines that a client has begun to cooperate.

CONCLUSION

   Gaining cooperation from TANF clients is important to facilitating child support
   enforcement. Congress has long maintained that recipients of public benefits are obligated
   to assist States in pursuing support for their children. Client responsiveness can ease and
   speed the support enforcement process, particularly when paternity has not yet been
   established.

   All six of our focus States have implemented client cooperation policies compatible with
   the Federal mandates, including establishing guidelines for staff, allowing for use of
   exceptions, and imposing uniform penalties. Staff in both the public assistance and child
   support agencies appear to value client cooperation, and attempt to implement State
   policy in a way that is largely flexible and client-focused. This includes relying primarily
   on front line staff closest to the individual cases to determine whether clients have
   adequately cooperated. Although most TANF clients cooperate readily, gaining
   cooperation from some can prove difficult. In response, staff typically provide multiple
   opportunities for clients to give information and to make appointment deadlines, and
   appear concerned about legitimate barriers to cooperation.

   Nevertheless, shortfalls and difficulties in current practice remain. However, based on our
   review, there are good opportunities to address them in a practical way. Our companion
   reports discuss particular issues and potential problems in greater detail. These include
   breakdowns in communication between the public assistance and child support
   enforcement agencies, the relatively modest use of good cause exceptions, possible
   barriers and disincentives to cooperation, and potential solutions employed by our focus
   States.

   The Administration for Children and Families (ACF) did not provide comments in
   response to our draft report.


                                             11

                                  ENDNOTES

1.	    See our companion report, Client Cooperation With Child Support Enforcement: Use of
       Good Cause Exceptions, OEI-06-98-00043, 2000.

2.     Social Security Act, Title IV, Part A., Sec. 408 (2).

3.     Social Security Act, Title IV, Part A., Sec. 409 (5).

4.	    For information regarding gaining client cooperation with child support enforcement from
       individuals receiving Medicaid, but not TANF, see our report, Client Cooperation with
       Child Support Enforcement: Medicaid-Only Clients, OEI-06-98-00045, 2000.

5.	    Public assistance and child support staff use the term “co-location” to describe two
       arrangements: when the two agencies share offices; and when child support staff is
       assigned to work at a local public assistance office either daily, or on a periodic schedule.
       For clarity, we call the former arrangement ‘co-location’ and the latter ‘out-stationing’.
       Forty-six percent of local child support offices we surveyed in focus States report using
       some form of co-location or out-stationing.

6.     Even fewer local child support respondents we surveyed report using these videos.

7.     Ibid, OEI-06-98-00043, 2000.

8.	    For more information about interviews conducted by public assistance staff, see our
       companion report on the role of the public assistance agency, Client Cooperation with
       Child Support Enforcement: The Role of Public Assistance Agencies, OEI-06-98-00042,
       2000.

9.	    See our report, Paternity Establishment: State Use of Genetic Testing, OEI 06-98-00054,
       1999.

10.	   See our report, Paternity Establishment: Use of Voluntary Paternity Acknowledgments,
       OEI 06-98-00053, 2000.

11.	   See our report, Client Cooperation with Child Support Enforcement: Challenges and
       Strategies to Improvement, OEI-06-98-00041, 2000.

12.	   The date within the month may affect the amount of time an individual client has to
       comply because public assistance agencies typically reduce the next month’s grant check.

13.	   Prior to welfare reform, this State received a waiver to test different penalties at select
       offices. Therefore, in some areas, the State immediately eliminates all cash assistance as
       penalties for noncooperation.



                                                 12

